Audit
Report
     GOVERNMENT PERFORMANCE AND RESULTS ACT
 PERFORMANCE MEASURE FOR DOD TOTAL ASSET VISIBILITY



Report No. D-2002-016                 November 21, 2001



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DLA                   Defense Logistics Agency
DUSD(L&MR)            Deputy Under Secretary of Defense (Logistics and Materiel
                         Readiness)
GPRA                  Government Performance and Results Act
JTAV                  Joint Total Asset Visibility
OSD                   Office of the Secretary of Defense
SSIR                  Supply System Inventory Report
TAV                   Total Asset Visibility
                               Office of the Inspector General, DoD
Report No. D-2002-016                                                                 November 21, 2001
      Project No. (D2001LD-0078)

                      Government Performance and Results Act
                 Performance Measure for DoD Total Asset Visibility

                                         Executive Summary

Introduction. This is the first of two reports addressing total asset visibility. This
report discusses the effectiveness of the DoD Total Asset Visibility Program as it
relates to the Government Performance and Results Act Performance Measure 2.3.5,
“Visibility and Accessibility of DoD Materiel Assets.” A second report will discuss
the effectiveness of the Joint Total Asset Visibility Program.

The DoD Total Asset Visibility Program, managed by the Office of the Deputy Under
Secretary of Defense (Logistics and Materiel Readiness), was an initiative aimed at
achieving visibility over 100 percent of DoD materiel assets. The goal of the DoD
Total Asset Visibility Program was to provide DoD users with timely, accurate
information on the location, movement, status, and identity of military assets1 and the
capability to perform transactions using that information. The DoD Total Asset
Visibility capability was developed in large part by integrating existing and evolving
business systems employed by the Services and the Defense Logistics Agency.

Visibility of assets has been a concern for the Services for many years. Lessons learned
from Operations Desert Shield and Desert Storm brought out the seriousness of the
problem. During Operations Desert Shield and Desert Storm, the responsiveness of the
logistics system was degraded by thousands of duplicate orders placed because
operational units had inadequate visibility over the status of their requisitions,
particularly for critical items. Moreover, an enormous amount of materiel was shipped
to the theater but was not readily available to U.S. forces because of poor control and
visibility of the assets.
Objective. The overall audit objective was to evaluate the effectiveness of the DoD
Total Asset Visibility Program. Specifically, the audit evaluated the performance
measure for DoD Total Asset Visibility. In addition, we evaluated the management
control program related to the objective.

Results. The DoD Total Asset Visibility2 performance data reported by the Secretary of
Defense in the FY 2001 “Annual Report to the President and Congress” was incomplete
and inconsistent. We estimate that assets targeted for visibility should be approximately
$198.8 billion rather than the $95.5 billion reported under the DoD Total Asset
Visibility performance measure. Several categories of assets, including principal end
items and bulk fuel, were excluded from the DoD Total Asset Visibility performance

1
    Military assets include weapon systems, tactical vehicles, ammunition, parts and assemblies that support
    principal end items, and consumable items, such as food, medical items, and fuel.
2
    References throughout this report to Total Asset Visibility are inclusive references to mean asset
    visibility and accessibility.
measure. In addition, the reported asset data relied on supply systems whose accuracy
was questioned in numerous audit reports over the past 5 years. As a result, the DoD
Total Asset Visibility measure reported was not a reliable indicator of total asset
visibility. See the Finding section for details on the audit results. See Appendix A for
details on our review of the management control program.

Summary of Recommendations. We recommend that the Deputy Under Secretary of
Defense (Logistics and Materiel Readiness) evaluate the usefulness of the DoD Total
Asset Visibility performance measure; issue specific, written, DoD Total Asset
Visibility performance measure guidance that clarifies the required data elements for
the measure; and establish and institutionalize a process to evaluate and verify data
submitted by DoD Components for the Total Asset Visibility performance measure.

Management Comments. We provided a draft of this report on August 24, 2001. No
management comments were received. We request that the Under Secretary of Defense
for Acquisition, Technology, and Logistics provide comments on the final report by
December 21, 2001.




                                            ii
Table of Contents

Executive Summary                                               i


Introduction
     Background                                                 1
     Objective                                                  2

Finding
     DoD Total Asset Visibility Performance Measure            3

Appendixes
     A. Audit Process
           Scope                                               13
           Methodology                                         13
           Management Control Program Review                   14
     B. Prior Coverage                                         15
     C. DoD Total Asset Visibility Systemic Control Weakness   21
     D. Report Distribution                                    23
Background
           This is the first of two reports addressing total asset visibility. This report
           discusses the effectiveness of the DoD Total Asset Visibility (TAV) Program as
           it relates to the Government Performance and Results Act (GPRA). The second
           report will discuss the effectiveness of the Joint Total Asset Visibility (JTAV)
           Program.

           DoD Total Asset Visibility Program. The DoD TAV program is an initiative
           managed by the Office of the Deputy Under Secretary of Defense (Logistics and
           Materiel Readiness) (DUSD[L&MR]). The DoD TAV capability was
           developed in large part by integrating existing and evolving business systems
           employed by the Services and the Defense Logistics Agency (DLA).1

           DoD Regulation 4140.1-R and Defense Total Asset Visibility Implementation
           Plan. The January 1993 version of DoD Regulation 4140.1-R, “DoD Materiel
           Management Regulation,” provided guidance for the uniform management of
           DoD materiel. In providing that guidance, DoD Regulation 4140.1-R also
           defined the objectives of TAV for achieving wholesale and retail visibility of
           assets. DoD Regulation 4140.1-R was revised in May 1998 and included a more
           detailed explanation of TAV objectives that mirrored the terminology contained in
           the “Defense Total Asset Visibility Implementation Plan,” November 1995
           (Implementation Plan) that the Under Secretary of Defense for Acquisition,
           Technology, and Logistics had developed and published. The principal purposes
           of the Implementation Plan were to define TAV requirements and put forward
           architecture to satisfy those requirements. That definition of TAV requirements
           was used in the updating of DoD Regulation 4140.1-R in May 1998. DoD
           Regulation 4140.1-R states, “The Total Asset Visibility (TAV) capability shall
           provide timely and accurate information on the location, movement, status, and
           identity of units, personnel, equipment, and supplies. It shall also provide the
           ability to act on the information to improve the overall performance of DoD
           logistics practices.” Both the Implementation Plan and DoD Regulation 4140.1-R
           also state that TAV methodologies and procedures apply to all materiel assets, to
           include fuel, medical items, and ammunition.

           Joint Total Asset Visibility Program. The JTAV Program uses the same
           definition as DoD Regulation 4140.1-R for defining the program’s mission.
           The JTAV capability is “the capability to provide users with timely and accurate
           information on the location, movement, status, and identity of units, personnel,
           equipment and supplies. It facilitates the capability to act upon that information
           to improve overall performance of DoD’s logistics practices.” The JTAV
           Program provides visibility of selected assets to commanders in chief and Joint
           Task Force commanders. However, JTAV does not provide the capability to
           access (requisition) those assets. JTAV asset visibility is not part of the GPRA
           TAV performance measure.


1
    References throughout this report to the Components are inclusive references to mean the four Services
    (Army, Navy, Air Force, and Marine Corps) and the Defense Logistics Agency.
                                                      1
    Government Performance and Results Act. The GPRA of 1993 (Public
    Law 103-62) was designed to improve Government-wide program effectiveness,
    Government accountability, and, ultimately, public confidence by requiring
    agencies to identify measurable annual performance goals against which actual
    achievements can be compared. DoD annually reports on the achievement
    status for GPRA goals in the “Annual Report to the President and Congress.”

           Performance Measure 2.3.5. In 1996, DoD established GPRA
    Performance Measure 2.3.5, “Visibility and Accessibility of DoD Materiel
    Assets.” The DoD TAV measure uses the definition of TAV that is found in
    the Implementation Plan and was later added to the May 1998 version of DoD
    Regulation 4140.1-R.

            Data Source. Data used by the DUSD (L&MR) to calculate the
    progress in meeting the GPRA TAV goal, 100 percent asset visibility and
    accessibility by FY 2006, were based on reports provided by the Components.
    DUSD(L&MR) stated that each Component determined what assets would be
    targeted for visibility and accessibility. Component data were obtained from a
    variety of automated databases, including the Supply System Inventory Report
    (SSIR) and Component-level automated logistics management systems, such as
    the Army Total Asset Visibility System and the DLA Standard Automated
    Materiel Management System. The percentage being reported under the
    performance measure was based on percent of assets targeted for visibility and
    accessibility by each Component. The Implementation Plan assigned
    responsibility for ensuring the implementation of DoD-wide asset visibility to
    the staff within the Office of the DUSD(L&MR).


Objective
    The overall audit objective was to evaluate the effectiveness of the DoD TAV
    Program. Specifically, the audit evaluated the performance measure for DoD TAV.
    In addition, we evaluated the management control program related to the objective.
    See Appendix A for a discussion of the audit scope and methodology and the review
    of the management control program. See Appendix B for prior coverage.




                                       2
            DoD Total Asset Visibility Performance
            Measure
            The TAV performance data reported by the Secretary of Defense in the
            FY 2001 “Annual Report to the President and Congress” were
            incomplete and inconsistent. We estimate that assets targeted for
            visibility should be approximately $198.8 billion rather than the
            $95.5 billion reported under the DoD Total Asset Visibility performance
            measure. Several categories of assets, including principal end items and
            bulk fuel, were excluded from the TAV performance measure. In
            addition, the reported asset data relied on supply systems whose accuracy
            was questioned in numerous audit reports over the past 5 years. That
            condition occurred because DUSD(L&MR) did not provide adequate
            written guidance or oversight for the DoD TAV performance measure.
            Specifically, DUSD(L&MR) did not clarify to the DoD Components
            what types of assets were to be reported for GPRA and did not evaluate
            and verify the asset data that the DoD Components reported. As a
            result, the DoD TAV performance measure was not a reliable indicator
            of DoD TAV.


Evolution of Total Asset Visibility Concept
     Visibility of assets has been a concern of the Services for many years. The
     January 1993 version of DoD Regulation 4140.1-R defined TAV as “the
     capability for both operational and logistics managers to obtain and act on
     information on the location, quantity, condition, movement, and status of assets
     throughout the DoD logistics system. TAV includes all levels, and all
     secondary items, both consumable and reparable.” Lessons learned from
     Operations Desert Shield and Desert Storm focused attention on the seriousness
     of the problem. During Operations Desert Shield and Desert Storm, the
     responsiveness of the logistics system was degraded by thousands of duplicate
     orders placed because operational units had inadequate visibility over the status
     of their requisitions, particularly for critical items. Moreover, an enormous
     amount of materiel was shipped to the theater, but was not readily available to
     U.S. forces because of poor control and visibility of the assets.

     Responding to those problems, the Under Secretary of Defense for Acquisition,
     Technology, and Logistics published the Implementation Plan in
     November 1995, which outlined the concepts, requirements, and milestones to
     provide a TAV capability for DoD. The Implementation Plan states, “TAV is
     the capability to provide [users with] timely and accurate information on the
     location, movement, status, and identity of units, personnel, equipment, and
     supplies. It also includes the capability to act upon that information to improve
     overall performance of DoD’s logistics practices.” The Implementation Plan
     also builds on the definition provided in DoD Regulation 4140.1-R. It expounds
     on the need for timely and accurate information on the status and location of all
     assets and it expands the range of assets from the secondary items to all classes
                                         3
of supply (including ammunition and principal end items) as well as units,
personnel, and medical patients. The Implementation Plan addresses TAV
requirements in the areas of requisition tracking and visibility of assets in
storage (also referred to as on-hand or in-stock assets), in process (includes
in-repair assets), and in transit (includes due-in assets).

In recognition of the evolving requirements for materiel management, DoD
Regulation 4140.1-R was revised in May 1998 to incorporate the TAV goals
and to mirror the definition of TAV set forth in the Implementation Plan. The
Regulation’s definition of TAV was revised to read, “Total Asset
Visibility (TAV) capability shall provide timely and accurate information on the
location, movement, status, and identity of units, personnel, equipment, and
supplies. It shall also provide the ability to act on the information to improve
the overall performance of DoD logistics practices.” The revised DoD
Regulation 4140.1-R also states that TAV methodologies and procedures apply
to all materiel assets, to include fuel, medical items, and ammunition.

During the same time frame that the TAV concept was evolving, GPRA was
enacted to improve Government-wide program effectiveness, accountability,
and, ultimately, public confidence by requiring agencies to identify measurable
annual performance goals. In 1996, the DoD Logistics community identified
Performance Measure 2.3.5, “Visibility and Accessibility of DoD Materiel
Assets,” as one of several goals designed to streamline the DoD infrastructure
by redesigning the DoD support structure and pursuing business practice
reforms. The stated goal of the GPRA TAV performance measure was the
same as that found in both the Implementation Plan and DoD
Regulation 4140.1-R. The performance measure goal is: “The Total Asset
Visibility (TAV) program is to provide DoD users with timely, accurate
information on the location, movement, status, and identity of military assets
(units, equipment, and supplies) and the capability to perform transactions using
that information.” Asset visibility is measured as the percentage of DoD
worldwide inventory that is both visible (is in the databases) and accessible to
Integrated Materiel Managers (available to process orders against). The
narrative description of Performance Measure 2.3.5 also states that the measure
“does not take into account the visibility of items in transit (i.e., items that are
in route from warehouses to customers).” The asset visibility and accessibility
baseline was set at 50 percent in FY 1996. DoD reported in the FY 2001
“Annual Report to the President and Congress” a TAV visibility and
accessibility rate of 96 percent for FY 2000. The performance goal for asset
visibility and accessibility is 100 percent by FY 2006. See Table 1 for the
percents reported from FY 1997 through FY 2000.




                                     4
                      Table 1. Percent of Assets Reported as Visible and Accessible
                                   Under Performance Measure 2.3.5
                    100
                     75                                      94             96
                                             82
                     50        60
                     25
                      0
                             1997           1998           1999            2000
                                                        Fiscal Year




Performance Measure Data
           According to the data provided in the “Government Performance and Results
           Act Department of Defense FY 2000 Performance Report,” March 2001 (the
           FY 2000 GPRA Report), 2 DoD exceeded not only the performance goal for
           asset visibility and accessibility for FY 2000 but also exceeded the 94 percent
           goal set for FY 2001. However, the data provided by the DoD Components as
           input to the GPRA TAV measure for FY 2000 were incomplete and
           inconsistent. Specifically, the data used to calculate the GPRA TAV measure
           did not include all the types of assets required by DoD Regulation 4140.1-R.
           As a result, the GPRA measure title and description were confusing and the
           measure was not a reliable indicator of DoD TAV performance.


Completeness
           The percentage value of assets that was reported in the TAV performance
           measure was calculated on total assets targeted. Each Component determined
           what assets were targeted for visibility and accessibility. We were unable to
           find any documentation that provided guidance that specified the categories of
           assets to be included in those that were targeted. The assets targeted for
           visibility and accessibility did not match the assets required to be included in the
           TAV Program by DoD Regulation 4140.1-R. In addition, the DoD TAV
           performance measure is not adequately defined because asset categories making
           up the universe of all DoD assets were not developed and identified in the
           measure’s description. The description does not state that the assets being
           reported are a subset of total assets required to be visible and accessible.

2
    The FY 2000 GPRA Report is included in the FY 2001 “Annual Report to the President and Congress”
    as Appendix I.
                                                   5
            TAV Input. In the Component FY 2000 GPRA reports3 provided to
            DUSD(L&MR), all the Components excluded certain categories of assets, such
            as in-transit supply inventory (wholesale and retail) that has been shipped from
            vendors after acceptance by the Government but not yet received by the
            inventory managers (due-in items). In-transit items are a significant element of
            the DoD inventory. For example, the most recent SSIR, September 30, 1999,
            identified $5.1 billion of in-transit stock. The SSIR defined in-transit stock as
            due-in assets as well as assets that are between storage locations, wholesale or
            retail. The GPRA TAV data partially included in-transit stock between storage
            locations but did not include any due-in assets. Although it was not possible to
            exactly quantify the portion of in-transit stock included in the GPRA data, we
            estimated that out of the $5.1 billion of in-transit assets identified in the SSIR,
            assets valued at approximately $4.7 billion were not included in the GPRA TAV
            data reported.4
            Additional categories of assets excluded from the GPRA TAV measure included
            ammunition, bulk fuel, equipment, and assets turned in to the Defense
            Reutilization and Marketing Service. The DoD General Fund Financial
            Statement for FY 1999 reported that total DoD ammunition assets were valued
            at $36.7 billion. Detailed DLA input to the SSIR reported $1.7 billion of bulk
            fuel assets for FY 1999.5 The detailed DLA input to the SSIR did not contain
            an estimate of Defense Reutilization and Marketing Service assets. However,
            the Defense Reutilization and Marketing Service provided an estimate of
            $3.8 billion worth of on-hand assets as of July 27, 2001. The SSIR did not
            provide data on all military equipment. However, assets with a value of
            $93.1 billion, including ammunition, were reported in the SSIR for principal
            items.6 Principal items include some equipment but do not include major
            weapon systems such as tanks, aircraft, and ships.

            The value of Component assets targeted for visibility and accessibility as well as
            the value of assets reported as visible and accessible in the FY 2000 GPRA
            Report under the TAV performance measure are shown in Table 2. The
            reported 96 percentage of achievement of the TAV performance measure is
            based on the accessibility values.




3
    The Component reports as of September 30 each year are used by DUSD(L&MR) for reporting on the
    GPRA TAV measure for that fiscal year.
4
    That estimate was based on FY 1999 SSIR data for the Air Force and DLA. The Navy partially
    reported in-transit stock in the GPRA data, but the dollar value reported could not be estimated. The
    Army and the Marine Corps did not include any in-transit stock in the GPRA data.
5
    SSIR data do not specifically identify DLA bulk fuels, but DLA bulk fuels were identified in the detailed
    DLA input documentation to the SSIR.
6
    Principal items are end items or replacement assemblies of such importance to operational readiness that
    management techniques require centralized individual item management throughout the supply system.
                                                       6
                                      Table 2. Performance Measure 2.3.5 FY 2000 TAV Data
                                                       (dollars in billions)
                               $100
                                        $95.5
                               $95                                              Targeted for visibility
                 Asset Value
                                                 $89.8   $89.5                  Reported visible
                               $90                                 $86.3
                                                                                Targeted for accessibility
                               $85
                                                                                Reported accessible
                               $80
                                                 DoD TAV Totals


            The assets targeted for visibility were a subset of TAV that may have represented
            less than 50 percent of the assets required by DoD Regulation 4140.1-R. Using
            data from the most recent SSIR and the assets identified in the FY 2000 GPRA
            Report, the DoD TAV assets targeted for visibility should total approximately
            $198.8 billion rather than the $95.5 billion reported under the GPRA TAV
            measure. Although the SSIR data were for FY 1999 and the GPRA data were
            primarily for FY 2000, the comparison is valid for the purpose of demonstrating
            the relative magnitude of assets that were not included in the GPRA data.7
            Table 3 shows the relative magnitude of assets, estimated to be approximately
            $103.3 billion, which were not included in the GPRA TAV data.



             Table 3. Assets Targeted and Excluded by the GPRA TAV Performance Measure
                                           (dollars in billions)

                                                                   $4.7

                                                                   $3.8

                                                                   $1.7        Targeted assets
                                                                               Excluded assets
              $95.5                     $103.3                                   In-transit
                                                                                 Defense Reutilization
                                                                  $93.1          and Marketing Service
                                                                                 DLA bulk fuel
                                                                                 Principal end items




7
    Historically, the SSIR data do not show wide variations from year to year in total assets reported. For
    example, since 1995, the largest variation between secondary item totals was about 12 percent and
    around 18 percent for principal end items.
                                                           7
           Timeliness. In addition to those assets that were not included in the GPRA TAV
           performance measure data, the reported supply data do not provide a complete
           picture of assets that were visible or accessible during the reporting period. For
           each reporting year, the GPRA TAV data provides a September 30 snapshot of
           assets that had been entered into the Service automated logistics management
           databases, which may not reflect an accurate picture of the capability of inter- and
           intra-Service TAV. For example, the Air Force explained that an installation that
           had automated system problems with software or hardware was categorized as
           suspended. The assets for a suspended installation were not included in accessibility
           reporting if the suspended status was in place on September 30. However, if a
           suspended installation’s automated system problems had been resolved and the
           logistics system was functioning on September 30, the assets were counted as
           visible and accessible for the fiscal year calculation that was provided in the DoD
           GPRA performance reports. In addition, the asset snapshot provided by DLA was
           not for the same time period as the snapshots provided by the Services. According
           to DLA personnel, for the FY 2000 GPRA Report, DLA reported a combination of
           FY 1999 and FY 2000 year-end data. DLA used September 30, 1999, data to
           report assets managed and owned by DLA and September 30, 2000, data to report
           assets managed by DLA but owned by the Services. The FY 1999 data accounted
           for about 60 percent of the dollar value of all DLA assets ($9.4 billion out of
           $14.7 billion) reported under the GPRA TAV measure in FY 2000.


Consistency
           As a result of heightened emphasis on attaining asset visibility for the operational
           commanders since Operation Desert Storm, the Implementation Plan specifically
           addresses the operational commanders’ requirement for visibility of in-transit assets.
           The GPRA TAV performance measure specifically included “movement . . . of
           military assets” in its description. However, the narrative description also states
           that the GPRA TAV measure excludes in-transit assets. That description is
           contradictory in terms of what the performance measure actually reports.

           A review of the Component GPRA data revealed that in-transit assets were partially
           reported by three of the Components. In-transit supply inventory that was between
           storage locations, wholesale or retail, were included in Air Force and DLA TAV
           data and partially included in Navy data. None of the Components included due-in
           items, in-transit assets that had been shipped from vendors after acceptance by the
           Government but had not been received by the inventory managers. The Air Force
           explained that it considered in-transit assets, except for due-in assets, to be on-hand
           assets. In-transit assets (less due-in assets) were reported in the DLA GPRA data as
           a part of the overall consumable items in stock. Although not broken out as a
           separate entry in the data provided to DUSD(L&MR), DLA has a system that tracks
           in-transit assets. According to the source documents used by DLA to calculate data
           presented in the SSIR, DLA had in-transit assets valued at about $652.9 million out
           of a total inventory of about $9.5 billion for FY 1999.8


8
    DLA data provided for the SSIR for FY 1999 were also used for the DLA-owned assets provided in the
    FY 2000 GPRA TAV data.
                                                    8
     The Army and the Marine Corps did not report any in-transit asset data. The
     Army and the Marine Corps lacked automated systems that enabled both the
     tracking and valuation of in-transit assets. The Army reported in-transit visibility
     of assets as a management control weakness in its FY 2000 “Annual Statement of
     Assurance,” March 2001. Since 1996, the DoD reported TAV as a systemic
     weakness in the DoD annual statements of assurance. See Appendix C for
     additional information on the TAV management control weaknesses reported in
     annual statements of assurance.

     Additionally, reporting of in-repair assets was inconsistent. The Army, the Air
     Force, and the Marine Corps included in-repair assets as part of their reported
     asset data. The Air Force data included in-repair assets at contractor repair
     facilities but the Army data did not include assets at contractor facilities. The
     Navy reported in-repair assets for the wholesale inventory points only because it
     did not have a system that tracked in-repair assets at the retail level. Another
     example of inconsistent TAV data were the inclusion of about $1.6 billion in
     visible and accessible assets that the Navy had turned in to the Defense
     Reutilization and Marketing Service. As mentioned previously, Defense
     Reutilization and Marketing Service assets were not targeted for visibility or
     accessibility by DLA. We could find no explanation for the exclusion of those
     assets in the description of the TAV measure or in the detailed TAV reports
     from the Army, the Air Force, or the Marine Corps. The Navy stated it
     targeted those assets because they were available if needed.


Data Accuracy
     Audit reports over the past 5 years have indicated that automated inventory
     management systems of the DoD Components were not reliable sources of data
     on inventory items and their valuation (see Appendix B for a list of prior
     reports). The data being reported to DUSD(L&MR) by the Components for the
     DoD TAV performance measure were of questionable accuracy. The General
     Accounting Office; the Inspector General, DoD; and the Service audit
     organizations have issued numerous audit reports during the past 5 years that
     identify examples of inaccurate inventory data being reported because of both
     inaccurate inventory counts and inaccurate inventory valuation by the
     Components. As a result, the data being reported under the GPRA TAV
     measure cannot be considered an accurate indicator of quantity or value of
     assets.

     In the past 5 years, at least 41 reports identified problems within DoD
     Components in inventory data accuracy. Recommendations in these 41 reports
     included the need to develop a TAV training plan, issue regulatory guidance,
     and establish new data collection procedures. Of the 153 recommendations
     specific to inventory data accuracy, 24 percent (37 recommendations) had not
     been fully implemented as of July 1, 2001. The following paragraphs discuss
     some of those reports.



                                          9
General Accounting Office. Over the past 5 years the General Accounting
Office issued four reports, including congressional testimony, that address
inaccurate inventory data; however, none of the recommendations specifically
address inventory data accuracy. Testimony issued as General Accounting
Office Report No. T-AIMD/NSIAD-99-145, “DoD Financial Management:
More Reliable Information Key to Assuring Accountability and Managing
Defense Operations More Efficiently,” April 14, 1999, noted that financial
statement audits had found that DoD generally excludes information in several
inventory accountability systems from financial reports, including reports
provided to Congress on inventory levels, and from overall visibility systems.
An example was cited in which about $19 billion of Government-owned materiel
held by contractors and more than $3 billion of inventory items held by
engineering and ordnance organizations were omitted from reports to Congress.
The testimony concludes that the information in the DoD logistics systems on
inventory did not meet accuracy objectives and that unless substantive
improvements in producing reliable and timely data are made, efforts such as
TAV will have difficulty achieving their objectives.

Inspector General, DoD. Over the past 5 years the Inspector General, DoD,
issued 10 audit reports that specifically address inaccurate inventory data.
Those 10 reports made 48 recommendations specific to inventory data accuracy,
23 of which had not been fully implemented. In the past year, the Inspector
General, DoD, issued three reports in a series that address inventory valuation
at each of the three DLA Defense Supply Centers (Columbus, Philadelphia, and
Richmond). Specifically, the reports state that the inventory valuation data from
the Defense Supply Centers, maintained in the DLA Standard Automated
Materiel Management System, cannot be relied on to support the inventory
amounts reported on the DLA financial statements. For example, the third
report in the series, Report No. D-2001-146, “Inventory Valuation at the
Defense Supply Center Philadelphia,” June 21, 2001, states that about
82 percent (599 items) of 728 non-subsistence items sampled at the Defense
Supply Center Philadelphia were not correctly valued due to computational
errors or were not supported by contract documentation. The report also states
that about 60 percent (49 items) of the 81 subsistence items sampled were
inaccurately valued.

Army. Over the past 5 years the Army Audit Agency issued 12 audit reports
that address inaccurate inventory data. The 12 reports made
65 recommendations specific to inventory data accuracy, 3 of which had not
been fully implemented. On November 17, 1997, the Army Audit Agency
issued Report No. AA 98-31, “Total Asset Visibility-Operational Projects,” that
concludes on-hand asset balances for operational projects in the Army TAV
capability were not complete or reliable. For example, the Army Support
Office, Philadelphia, Pennsylvania, managed about $367 million in assets for
operational projects. However, those assets were not reported accurately to the
Army TAV capability because the office did not have procedures and software
to report asset balances. Using a sample of 50 stock number items, valued at
$127 million, the auditors found that the Army TAV capability did not
accurately reflect the inventory balances of 42 (84 percent) of those items.


                                   10
    Navy. Over the past 5 years the Naval Audit Service issued eight audit reports
    that address inaccurate inventory data. The 8 reports made 27 recommendations
    specific to inventory data accuracy, 9 of which had not been fully implemented.
    For example, on February 27, 2001, the Naval Audit Service issued Report
    No. N2001-0016, “Department of the Navy Principal Statements for Fiscal
    Year 2000: Inventory and Related Property, Net.” The report stated that none
    of 15 contracts with scheduled deliveries valued at about $500 million were
    maintained in a due-in file, which could have a negative impact on procurement
    planning.

    Air Force. Over the past 5 years the Air Force Audit Agency issued seven
    audit reports that address inaccurate inventory data. The 7 reports contained
    13 recommendations specific to inventory data accuracy, 2 of which had not
    been fully implemented. For example, on March 28, 2001, the Air Force Audit
    Agency issued Report No. 99061010, “Spare Parts Data System Inventory
    Accuracy,” that concluded the stock control and distribution inventory
    management system did not contain accurate inventory data for 89 percent
    (100 of 113) of items reviewed, resulting in misstated buy requirements for the
    100 items, valued at $5 million.


Guidance and Oversight
    The DUSD(L&MR) did not issue written guidance on the data elements to be
    included in the GPRA TAV performance measure. In addition, the
    DUSD(L&MR) did not institutionalize the process for verifying Component data
    included under the TAV measure. As a result, the DoD TAV performance
    measure reported to Congress under GPRA was not a reliable indicator of the
    status of the DoD TAV.

    Guidance. The responsible DUSD(L&MR) office and the Components did not
    have any written guidance on the content of the GPRA TAV measure, except
    for DoD Regulation 4140.1-R. However, the Components indicated that they
    had received verbal guidance from the DUSD(L&MR) and had arrived upon the
    reporting format used for their input to the FY 2000 GPRA Report through
    discussions among themselves. The Components had no charter or other formal
    documents, such as minutes of meetings, for those discussions. Lack of written
    guidance from the DUSD(L&MR) resulted in inconsistencies in the data
    targeted for asset visibility among the Components. For example, the Navy, the
    Air Force, and DLA partially included in-transit assets as part of the GPRA
    TAV data, and the Army and the Marine Corps did not.

    Oversight. The lack of an institutionalized process for verifying Component
    input resulted in incomplete and inconsistent data being used for the TAV
    measure. The responsible DUSD(L&MR) office had one individual responsible
    for oversight of the Component GPRA TAV data in addition to other duties.
    The responsible individual stated that she reviewed the data supporting the TAV
    performance measure by using trend analysis. The trend analysis consisted of
    reviewing the TAV data to identify and explain deviations in the data from
                                       11
    previous reports. She also pointed out that OSD did not require any additional
    detailed reviews of the data. For example, DUSD(L&MR) did not review the
    asset data provided by the Components in sufficient detail to identify that the
    Navy, the Air Force, and DLA were partially including in-transit assets; that the
    Navy included approximately $1.6 billion in assets that it had turned in to the
    Defense Reutilization and Marketing Service; and that the DLA FY 2000 data
    submission combined FY 1999 and FY 2000 data.


Conclusion
    The DoD TAV performance measure reported to Congress under GPRA was
    not a reliable indicator of the status of the DoD TAV. GPRA was enacted
    in 1993 for the purpose of providing a useful standard to measure performance
    of Government agencies. The GPRA measure for TAV was intended to
    measure progress in correcting long-standing asset visibility problems that were
    highlighted during Operation Desert Storm. The data reported under the GPRA
    TAV measure was not a good indicator of asset visibility and the measure did
    not provide a clear indication of the progress made in correcting supply
    accountability and distribution problems for the operational forces or other
    users. The reported data cover less than 50 percent of DoD assets that DoD
    Regulation 4140.1-R identifies to be included in the TAV data.


Recommendations
    We recommend that the Deputy Under Secretary of Defense (Logistics and
    Materiel Readiness):

           1. Evaluate the usefulness of the DoD Total Asset Visibility
    performance measure.

           2. Issue specific, written, performance measure guidance that
    standardizes and clarifies the required data elements for the Total Asset Visibility
    measure consistent with the evaluation of the usefulness of the measure.

           3. Establish and institutionalize a process to evaluate and verify data
    submitted by DoD Components for the Total Asset Visibility performance
    measure, consistent with the evaluation of the usefulness of the measure.


Management Comments Required
    Management did not comment on a draft of this report. We request that the
    Under Secretary of Defense for Acquisition, Technology, and Logistics provide
    comments on the final report.

                                        12
Appendix A. Audit Process

Scope
    We reviewed public law; DoD guidance; supply system reports; 41 prior
    reports, including the status of report recommendations; and Component GPRA
    TAV reports dated from January 1993 through July 2001. To accomplish the
    audit objective, we:

           •   interviewed officials and obtained documentation from the Office of
               the DUSD(L&MR), the Army, the Navy, the Air Force, the Marine
               Corps, and DLA elements responsible for reporting TAV under the
               GPRA performance measure;

           •   reviewed Component asset visibility data contained in fourth
               quarter FY 2000 reports provided to DUSD(LM&R) and documents
               related to the GPRA TAV performance measure reported to
               Congress; and

           •   evaluated the methodology used in collecting asset visibility data.

    High-Risk Area. The General Accounting Office has identified several
    high-risk areas in DoD. This report provides coverage of the DoD Financial
    Management and DoD Inventory Management high-risk areas.



Methodology
    We reviewed the fourth quarter FY 2000 Component asset visibility data used
    by DUSD(L&MR) to calculate the progress in meeting the GPRA TAV goal to
    determine the goal’s validity and applicability. Specifically, we reviewed each
    Component report to verify consistency among the Components in the categories
    of assets reported. We also reviewed each Component report to determine if all
    categories of assets required for inclusion in TAV were being reported. As a
    basis of comparison, we used asset data reported in the most recent SSIR and
    the FY 1999 DoD General Fund Financial Statement. The SSIR is an annual
    report published by OSD that provides summary level statistics on the status of
    DoD supply inventories. Component data submitted to DUSD(LM&R) were
    obtained from a variety of summary reports and databases, including the SSIR
    and Component-level automated logistics management systems, such as the
    Army Total Asset Visibility system, the Navy Fleet Inventory Management and
    Analysis Reporting system, the Air Force Supply System Inventory Report, the
    Marine Corps Stock Control System and the DLA Standard Automated Materiel
    Management System.


                                        13
    Use of Computer-Processed Data. We relied on computer-processed data that
    was contained in the Component reports that were provided to DUSD(L&MR) as
    input to the GPRA TAV measure. Although we did not perform reliability
    assessments of the Component automated logistics systems that were the source of
    the data, we determined that the data being provided under the GPRA TAV
    measure were of questionable accuracy based on prior audit coverage of reliability
    in accounting for assets as well as the valuation of those assets. (See Appendix B
    for a list of prior coverage.) However, because the majority of the errors resulted
    in under-reported inventory values, the errors did not preclude our use of the data
    for meeting the audit objective and do not affect our audit conclusions.

    Audit Type, Dates, and Standards. We conducted this program audit from
    February through August 2001 in accordance with generally accepted
    government auditing standards except that we were unable to obtain an opinion
    on our system of quality control. The most recent external quality control
    review was withdrawn on March 15, 2001, and we will undergo a new review.

    Contacts During the Audit. We contacted individuals and organizations within
    DoD. Further details are available upon request.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive system
    of management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of the management controls over the TAV process in DoD.
    Specifically, we reviewed DUSD(L&MR) management controls for ensuring that
    TAV data reported by the Components were current, accurate, and complete.
    We reviewed management’s self-evaluation applicable to those controls.

    Adequacy of the Management Controls. We identified a material management
    control weakness as defined by DoD Instruction 5010.40. The DUSD(L&MR)
    oversight of TAV reporting by the Components were inadequate to ensure that
    TAV data reported by the Components were current, accurate, and complete. The
    DUSD(L&MR) did not issue written guidance on the types of assets to be reported
    by the Components. Additionally, DUSD(L&MR) did not adequately validate the
    asset data the Components reported. Recommendations 2. and 3. in this report, if
    implemented, should correct this weakness. A copy of the report will be sent to
    the senior official in charge of management controls for DUSD(L&MR).

    Adequacy of Management’s Self-Evaluation. The Military Departments, OSD, and
    DoD identified TAV, or TAV-related issues, as a continuing material management
    control weakness in their respective Statements of Assurance for FY 2000. See
    Appendix C for a discussion of the DoD TAV management control weaknesses
    reported by the Military Departments, OSD, and DoD in their statements.
                                        14
Appendix B. Prior Coverage
    During the last 5 years, the General Accounting Office has issued 11 reports;
    the Inspector General, DoD, has issued 21 audit reports; the Army has issued
    23 audit reports; the Navy has issued 8 audit reports; and the Air Force has
    issued 8 audit reports addressing asset visibility in DoD. Unrestricted reports
    can be accessed over the Internet at:
        General Accounting Office: http://www.gao.gov
        Inspector General, DoD: http://www.dodig.osd.mil/audit/reports
       *Army Audit Agency: http://www.hqda.army.mil/aaaweb/
        Naval Audit Service: http://www.hq.navy.mil/navalaudit/
        Air Force Audit Agency: http://www.afaa.hq.af.mil/afck/plansreports/
                                        reports.shtml

    *Only General Accounting Office and military domain users can access Army
     reports; others can request a report through the site.

General Accounting Office
    General Accounting Office Report No. GAO-01-244, “Major Management
    Challenges and Program Risks: Department of Defense,” January 1, 2001

    General Accounting Office Report No. GAO-01-37R (OSD Case No. 2091),
    “Financial Management: Improvements Needed in the Navy’s Reporting of
    General Fund Inventory,” October 27, 2000

    General Accounting Office Report No. GAO/NSIAD-00-72 (OSD Case No. 2014),
    “Defense Management: Actions Needed to Sustain Reform Initiatives and Achieve
    Greater Results,” July 25, 2000

    General Accounting Office Report No. GAO/NSIAD-00-39 (OSD Case No. 1927),
    “Defense Inventory: Plan to Improve Management of Shipped Inventory Should
    Be Strengthened,” February 22, 2000

    General Accounting Office Report No. GAO/GGD-00-52, “Managing for
    Results: Challenges Agencies Face in Producing Credible Performance
    Information,” February 4, 2000

    General Accounting Office Report No. GAO/T-AIMD/NSIAD-99-171,
    “Department of Defense: Status of Financial Management Weaknesses and
    Actions Needed to Correct Continuing Challenges,” May 4, 1999

    General Accounting Office Report No. GAO/T-AIMD/NSIAD-99-145, “DoD
    Financial Management: More Reliable Information Key to Assuring Accountability
    and Managing Defense Operations More Efficiently,” April 14, 1999


                                        15
General Accounting Office (cont’d)
     General Accounting Office Report No. GAO/NSIAD-99-40 (OSD Case No. 1739),
     “Defense Inventory: DoD Could Improve Total Asset Visibility Initiative With
     Results Act Framework,” April 12, 1999

     General Accounting Office Report No. GAO/T-NSIAD-99-83, “Defense
     Inventory: Continuing Challenges in Managing Inventories and Avoiding
     Adverse Operational Effects,” February 25, 1999

     General Accounting Office Report No. GAO/T-NSIAD/AIMD-98-122,
     “Defense Management: Challenges Facing DoD in Implementing Defense
     Reform Initiatives,” March 13, 1998

     General Accounting Office Report No. GAO/HR-97-5, “High Risk Series:
     Defense Inventory Management,” February 1997

Inspector General, DoD
     Inspector General, DoD, Report No. D-2002-009, “Valuation of Inventories in
     the Defense Logistics Agency Standard Automated Materiel Management
     System,” October 22, 2001

     Inspector General, DoD, Report No. D-2001-146, “Inventory Valuation at the
     Defense Supply Center Philadelphia,” June 21, 2001

     Inspector General, DoD, Report No. D-2001-119, “Assessment of Inventory
     and Control of Department of Defense Military Equipment,” May 10, 2001

     Inspector General, DoD, Report No. D-2001-096, “Management of Information
     Technology Equipment, Office of the Secretary of Defense,” April 9, 2001

     Inspector General, DoD, Report No. D-2001-079, “Inventory Valuation at the
     Defense Supply Center Richmond,” March 14, 2001

     Inspector General, DoD, Report No. D-2001-078, “Inventory Valuation at the
     Defense Supply Center Columbus,” March 14, 2001

     Inspector General, DoD, Report No. D-2001-014, “Development and
     Implementation of a Joint Ammunition System,” December 6, 2000

     Inspector General, DoD, Report No. D-2001-002, “Defense Logistics Agency
     Customer Returns Improvement Initiative Program,” October 12, 2000

     Inspector General, DoD, Report No. D-2000-183, “Navy FY 1999 Financial
     Reporting of Operating Materials and Supplies – Ammunition,” September 1, 2000


                                      16
Inspector General, DoD (cont’d)
     Inspector General, DoD, Report No. D-2000-138, “Procedures Used to Test the
     Dollar Accuracy of the Defense Logistics Agency Inventory,” June 1, 2000

     Inspector General, DoD, Report No. D-2000-086, “Assuring Condition and
     Inventory Accountability of Chemical Protective Suits,” February 25, 2000

     Inspector General, DoD, Report No. D-2000-055, “Acquisition Management of
     the Joint Total Asset Visibility System,” December 14, 1999

     Inspector General, DoD, Report No. 99-159, “Interservice Availability of
     Multiservice Used Items,” May 14, 1999

     Inspector General, DoD, Report No. 99-114, “C-17 Program Serialization of
     Airframe Fracture-Critical and Landing-Gear Reliability-Critical Parts,”
     March 24, 1999

     Inspector General, DoD, Report No. 99-080, “Status of the Defense Logistics
     Agency Plan to Measure Inventory Record Accuracy at the Distribution Depots
     Using Statistical Sampling,” February 10, 1999

     Inspector General, DoD, Report No. 99-024, “Contract Terminations at Defense
     Industrial Supply Center and Defense Supply Center Philadelphia,” October 29, 1998

     Inspector General, DoD, Report No. 98-195, “Valuation and Presentation of
     Inactive Inventory on the FY 1997 Defense Logistics Agency Working Capital
     Fund Financial Statements,” August 27, 1998

     Inspector General, DoD, Report No. 98-155, “Joint Audit Report: Depot
     Source of Repair Code,” June 15, 1998

     Inspector General, DoD, Report No. 98-019, “Inventory Record Accuracy and
     Management Controls at the Defense Logistics Agency Distribution Depots,”
     November 10, 1997

     Inspector General, DoD, Report No. 97-159, “Inventory Accuracy at the
     Defense Depot, Susquehanna, Pennsylvania,” June 12, 1997

     Inspector General, DoD, Report No. 97-102, “Inventory Accuracy at the
     Defense Depot, Columbus, Ohio,” February 28, 1997

Army Audit Agency
     Army Audit Agency Report No. AA 01-175, “Army Working Capital Fund
     Principal Financial Statements for Fiscal Year 2000, Summary Audit Report,”
     February 9, 2001

                                       17
Army Audit Agency (cont’d)
    Army Audit Agency Report No. AA 00-403, “Army Working Capital Fund
    FY 99 Financial Statements: Inventory Controls, 21st Theater Support
    Command (Provisional),” September 22, 2000

    Army Audit Agency Report No. AA 00-306, “Accountability of Computer and
    Related Technology Equipment, U.S. Virgin Islands National Guard,”
    August 9, 2000

    Army Audit Agency Report No. AA 00-307, “Inventory and Financial
    Management, Defense Supply Service-Washington,” June 30, 2000

    Army Audit Agency Report No. AA 00-177, “Army Working Capital Fund
    Principal Financial Statements for Fiscal Year 1999,” February 10, 2000

    Army Audit Agency Report No. AA 99-325, “Army Working Capital Fund FY 98
    Financial Statements: Inventory and Related Property, Net,” June 30, 1999

    Army Audit Agency Report No. AA 99-300, “Retail Supply Management,
    U.S. Army, Europe, and Seventh Army,” June 30, 1999

    Army Audit Agency Report No. AA 99-240, “Receipt, Storage, and Issue
    Operations at Retail Activities, Fort Hood, Texas,” June 24, 1999

    Army Audit Agency Report No. AA 99-191, “Army’s Principal Financial
    Statements for Fiscal Year 1998: Supplemental Stewardship Reporting of
    National Defense Equipment,” March 26, 1999

    Army Audit Agency Report No. AA 99-161, “Army Working Capital Fund
    Principal Financial Statements for Fiscal Year 1998: Report on Internal
    Controls and Compliance With Laws and Regulations,” February 12, 1999

    Army Audit Agency Report No. AA 99-68, “Security and Accountability of
    Small Arms, Ammunition, and Explosives: U.S. Army Reserve Components,”
    December 9, 1998

    Army Audit Agency Report No. AA 98-31, “Total Asset Visibility-Operational
    Projects,” November 17, 1997

    Army Audit Agency Report No. AA 98-1, “Management of Deployable
    Medical Systems,” October 9, 1997

    Army Audit Agency Report No. AA 97-269, “Management of Equipment in
    Tables of Distribution and Allowances, U.S. Army Training and Doctrine
    Command,” August 11, 1997

    Army Audit Agency Report No. AA 97-233, “Total Asset Visibility, U.S. Army,
    Europe and Seventh Army,” June 30, 1997
                                     18
Army Audit Agency (cont’d)
    Army Audit Agency Report No. AA 97-161, “Management of Repair Parts for
    Maintenance,” March 17, 1997

    Army Audit Agency Report No. AA 97-135, “Total Asset Visibility-Acquisition
    Data,” March 3, 1997

    Army Audit Agency Report No. AA 97-121, “FY 96 Army Defense Business
    Operations Fund Financial Statements, Supply Management, U.S. Army
    Aviation and Troop Command,” February 12, 1997

    Army Audit Agency Report No. AA 97-86, “FY 96 Army Defense Business
    Operations Fund Financial Statements, Supply Management-Inventories,”
    December 31, 1996

    Army Audit Agency Report No. AA 97-85, “FY 96 Army Defense Business
    Operations Fund Financial Statements, Supply Management, 3d Infantry
    Division (Mechanized) and Fort Stewart,” December 31, 1996

    Army Audit Agency Report No. AA 97-74, “FY 96 Army Defense Business
    Operations Fund Financial Statements, Supply Management, U.S. Army
    Aviation Center and Fort Rucker,” December 31, 1996

    Army Audit Agency Report No. AA 97-68, “FY 96 Army Defense Business
    Operations Fund Financial Statements, Supply Management, U.S. Army Missile
    Command,” December 16, 1996

    Army Audit Agency Report No. AA 96-162, “Total Asset Visibility (TAV),”
    April 4, 1996

Naval Audit Service
    Naval Audit Service Report No. N2001-0016, “Department of the Navy
    Principal Statements for Fiscal Year 2000: Inventory and Related Property,
    Net,” February 27, 2001

    Naval Audit Service Report No. N2000-0032, “Fiscal Year 1999 Financial and
    Accounting Internal Controls at Defense Distribution Depot, Norfolk, VA and
    Fleet and Industrial Supply Center, Norfolk, VA,” August 7, 2000

    Naval Audit Service Report No. N2000-0014, “Department of the Navy
    Working Capital Fund Inventory Records and Valuation,” December 30, 1999

    Naval Audit Service Report No. N2000-0007, “Recording Onhand Quantities of
    Aviation Depot Level Repairable Inventories at Commercial Contractor Repair
    Facilities,” October 29, 1999

                                      19
Naval Audit Service (cont’d)
     Naval Audit Service Report No. 072-99, “Fiscal Year 1998 Financial and
     Accounting Internal Controls at Fleet and Industrial Supply Center and Defense
     Distribution Depot, Norfolk, VA,” September 30, 1999

     Naval Audit Service Report No. 065-99, “Fiscal Year 1998 Financial and
     Accounting Internal Controls at Defense Distribution Depot and Marine Corps
     Air Station, Cherry Point, NC,” September 23, 1999

     Naval Audit Service Report No. 049-99, “Department of the Navy Principal
     Statements for Fiscal Year 1998: Inventory and Related Property, Net,”
     July 27, 1999

     Naval Audit Service Report No. 031-98, “Department of the Navy Principal
     Statements for Fiscal Years 1997 and 1996: Reports on Internal Controls and
     Compliance with Laws and Regulations,” March 31, 1998

Air Force Audit Agency
     Air Force Audit Agency Report No. 99061010, “Spare Parts Data System
     Inventory Accuracy,” March 28, 2001

     Air Force Audit Agency Report No. 00061020, “Followup Audit – Asset
     Shipments Outside of Supply Control,” February 9, 2001

     Air Force Audit Agency Report No. DT000027, “Supply Business Area
     Metrics – Physical Inventory Adjustments; Oklahoma City Air Logistics Center,
     Tinker AFB [Air Force Base] OK,” August 11, 2000

     Air Force Audit Agency Report No. DR000031, “Item Manager Visibility of
     Shipments and Condemnations; Robins AFB GA,” June 30, 2000

     Air Force Audit Agency Report No. DR000021, “Distribution Depot Inventory
     Accuracy; Warner Robins Air Logistics Center,” April 3, 2000

     Air Force Audit Agency Report No. 98062013, “Inventory Items Awaiting
     Depot Maintenance,” May 13, 1999

     Air Force Audit Agency Report No. 97053003, “Inventory and Related Property,
     Fiscal Year 1997 Air Force Consolidated Financial Statements,” August 20, 1998

     Air Force Audit Agency Report No. 98066011, “Application Controls Within
     the Defense Material Utilization and Disposition Program Management
     System,” August 4, 1998



                                       20
Appendix C. DoD Total Asset Visibility Systemic
            Control Weakness
        The TAV systemic management control weakness reported in the FY 1999
        DoD Annual Statement of Assurance∗ defines the TAV problem as the lack of
        the capability within DoD to share logistics information concerning the
        location, condition, quantity, and availability of assets within and between the
        Components and the unified commands. The Statement of Assurance further
        states, “The components have developed their own systems which give them an
        asset visibility capability within their own respective organizations [which]
        must now be integrated and voids satisfied . . ..” However, all the actions and
        milestones established to correct the systemic control weakness address asset
        visibility in terms of the JTAV Program. The JTAV program addresses asset
        visibility for the unified commands rather than the Components. None of the
        milestones address the stated problem of integrating the Component logistics
        systems. The OSD identified TAV as a systemic control weakness in the
        Annual Statement of Assurance. In addition, the Army, the Navy, and the Air
        Force report a management control weakness related to TAV or TAV-related
        issues in their individual Statements of Assurance for FY 2000.

        Office of the Secretary of Defense. The OSD FY 2000 Statement of
        Assurance reported TAV as a systemic control weakness. The OSD Statement
        of Assurance also states, “While the USD(AT&L) [Under Secretary of Defense
        for Acquisition, Technology, and Logistics] reidentified ‘Total Asset Visibility’
        as a continuing systemic weakness, their submission shows all corrective actions
        as having been completed.”

        Army and Navy. Both the Army and the Navy reported a management control
        weakness in their FY 2000 Statements of Assurance. Both Services reported a
        weakness in the area of in-transit asset visibility, which the Army first reported
        as a weakness in FY 1996 and the Navy first reported as a weakness in
        FY 1999. Additionally, the Navy reported management control weaknesses in
        the TAV-related areas of “Requirements Determination and Excess Material”
        and “Unrecorded Inventories.” Those weaknesses have a direct and adverse
        impact on asset visibility.

        Air Force. The Air Force did not report TAV as a management control
        weakness in their FY 2000 Statement of Assurance. However, it did report
        management control weaknesses that impact the area of TAV. Those areas are
        “Spare Parts Accountability Controls” and “Classification of Material Shipment
        and Receipt Transactions.”

        Department of Defense. DoD first identified TAV as a systemic control
        weakness in FY 1996 and reported it as a weakness every year since.

∗
 The FY 2000 DoD Annual Statement of Assurance was issued in October 2001, subsequent to the
 completion of the audit. In keeping with prior DoD Annual Statements, the FY 2000 Annual Statement
 of Assurance identified TAV as a systemic control weakness.
                                                21
Coordination of Closure of Systemic Control Weaknesses
    Proposed Closure of TAV Control Weakness. In a coordination
    memorandum dated August 11, 2000, the DUSD(L&MR) requested
    concurrence from the Inspector General, DoD, on the proposed closure of the
    DoD TAV systemic control weakness.

    Inspector General, DoD, Response. The Inspector General, DoD, responded
    on August 25, 2000, to the DUSD(L&MR) and nonconcurred with the proposed
    closure of the TAV systemic control weakness. The Inspector General, DoD,
    commented that although TAV progress had been made there were still areas
    that needed work. Specifically, the Inspector General, DoD, identified the
    delays in the development of the Joint Ammunition System, the accuracy of
    DoD inventory records, and the lack of asset visibility at the retail level and
    in-transit as areas of concern.




                                      22
Appendix D. Report Distribution

Office of the Secretary of the Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics and Materiel Readiness)
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
  Director, Program Analysis and Evaluation
Director, Administration and Management

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          23
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         24
Audit Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant Inspector
General for Auditing, DoD, prepared this report. Personnel of the Office of the
Inspector General, DoD, who contributed to the report are listed below.

Shelton R. Young
Raymond D. Kidd
Tilghman A. Schraden
Kathryn L. Palmer
Walter S. Bohinski
William H. Zeh
Glen B. Wolff
Stuart W. Josephs
Susan R. Ryan
Major Daniel R. Sny, U.S. Air Force
